Snell & Wilmer
2001 K STREET, N.W.
SUITE 425 NORTH
WASHINGTON, DC 20006
202.756.1030 P
202.688.2201 F

Mary D. Hallerman
(202) 908-4262
mhallerman@swlaw.com

July 19, 2021
VIA COURT’S ELECTRONIC FILING SYSTEM AND FEDEX
Mr. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543-0001
Re:

Ezaki Glico Kabushiki Kaisha et al. v. Lotte International America Corp. et al.,
Case No. 20-1817: Extension of Time to Oppose Petition for a Writ of Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents Lotte International America Corp. and
Lotte Confectionary Co., Ltd. respectfully request a thirty-day extension of time—until August
30, 2021—to oppose the Petition for a Writ of Certiorari filed by Petitioners Ezaki Glico Kabushiki
Kaisha d/b/a Ezaki Glico Co., Ltd. and Ezaki Glico USA Corp.
The Petition was filed on June 24, 2021 and docketed on June 29, 2021. The current
deadline for Respondents to oppose the Petition is July 29, 2021. I am counsel of record in this
matter and had a pre-planned family vacation from July 10, 2021 through July 16, 2021. My
colleague and co-counsel, John J. Dabney, also had a pre-planned family vacation from July 2,
2021 through July 12, 2021. Respondents need additional time to prepare their opposition.
Petitioners have consented to this request.
Accordingly, Respondents respectfully request that their deadline to oppose the Petition be
extended until August 30, 2021.

ALBUQUERQUE
BOISE
DENVER
LAS VEGAS
LOS ANGELES
LOS CABOS
ORANGE COUNTY
PHOENIX
PORTLAND
RENO
SALT LAKE CITY
SAN DIEGO
SEATTLE
TUCSON
WASHINGTON, D.C.

Snell & Wilmer
Mr. Scott S. Harris
July 19, 2021
Page 2
Sincerely,
Snell & Wilmer
/s/ Mary D. Hallerman
Mary D. Hallerman

cc:

Jessica L. Ellsworth, Counsel of Record for Petitioners (via e-mail)
Neal Kumar Katyal (via e-mail)

